                    U.S. Department of Agriculture

                       Office of Inspector General
                                Southwest Region




          Audit Report



        Rural Utilities Service
Implementation of Loan and Grant Programs
     That Promote Renewable Energy




                            Report No. 09601-7-Te
                                      March 2008
                   UNITED STATES DEPARTMENT OF AGRICULTURE

                                    OFFICE OF INSPECTOR GENERAL


                                            Washington, D.C. 20250



March 21, 2008



REPLY TO
ATTN OF:          09601-7-Te

TO:               James M. Andrew
                  Administrator
                  Rural Utilities Service

THROUGH:          John Purcell
                  Director
                  Financial Management Division

FROM:             Robert W. Young /s/
                  Assistant Inspector General
                   for Audit

SUBJECT:          Implementation of Loan and Grant Programs That Promote Renewable Energy


This report presents the results of our audit of the Rural Utilities Service (RUS) implementation of
loan and grant programs that promote renewable energy. The overall objective of the audit was to
assess RUS’ actions related to renewable energy funds.

RUS has reported assistance totaling over $113.5 million in loans and grants to 23 recipients for
renewable energy projects from fiscal years (FY) 2001 through 2006. This assistance funded
renewable energy projects such as solar, wind, hybrid, hydroelectric and landfill gas. The
Department of Agriculture (USDA) anticipates that Congress will increase funding for such
programs. Given the increased emphasis on renewable energy for the U.S. economy, the Office of
Inspector General (OIG) initiated an audit to assess how RUS is administering these funds,
including its internal controls for determining program participants’ eligibility, monitoring program
activities, and evaluating the effectiveness of renewable energy projects.

We found that RUS’ internal controls over its electric loan and grant programs, which include
renewable energy projects, were generally adequate. It should be noted that RUS does not have
specific programs devoted solely to renewable energy. Instead, projects with a renewable energy
component are supported through one of RUS’ preexisting loan and grant programs. We found that
RUS does not have a mechanism for easily identifying grant applications with renewable energy

USDA/OIG-AUDIT/09601-7-Te                                                                     Page 1
                                               March 2008
components; however, we did not take exception. 1 We also found that RUS’ controls over program
participants’ eligibility and efforts to promote renewable energy projects were adequate. However,
we did identify one area in which RUS could strengthen program operations relating to renewable
energy activities.

We found that RUS did not have a formal strategy to maximize the utilization of funding set aside
for renewable energy. Although Rural Development (RD) does have a strategic plan, it is general
and not specific to RUS. RUS officials believe that they do not need a strategic plan that is specific
to RUS since they are one of the mission areas of RD, and RD has a strategic plan.

Specifically, we noted the following:

        •    For FYs 2001 through 2006, RUS used only $98.8 million of the approximately
             $800 million (12 percent) in funds set aside for renewable energy loans.

        •    Of the $44.7 million funded for grants from FYs 2003 through 2005, only about
             $14.9 million went to renewable energy projects.

We recommend that RUS develop a formal strategy that will maximize the use of available funding
resources for renewable energy projects.

BACKGROUND

USDA spent nearly $1.7 billion on renewable energy programs between FYs 2001 and 2006. In
2006 alone, USDA provided more than $270 million in areas such as the commercialization,
research, infrastructure development, and technical support of renewable energy projects. On
January 24, 2007, the Secretary of Agriculture announced that $1.6 billion in new funding would be
included in the 2007 Farm Bill for renewable energy, with a focus on cellulosic energy research and
production. This funding will support an array of renewable energy-related efforts underway at
USDA.

Within the RD mission area, RUS' Electric Programs provide leadership and capital to upgrade,
expand, maintain, and replace America’s vast rural electric infrastructure. The Rural Electrification
Act of 1936 authorizes the Electric Programs to make direct loans and loan guarantees to electric
utilities to serve customers in rural areas. The loans and loan guarantees finance the construction of
electric distribution, transmission, and generation facilities, including system improvements and
replacements required to furnish and improve electric service in rural areas. Eligible borrowers are
corporations, States, territories, and subdivisions and agencies thereof, municipalities, people’s
utility districts, and cooperative, nonprofit, limited-dividend, or mutual associations that provide
retail or power supply service needs in rural areas.

RUS has provided assistance totaling over $113.5 million in loans and grants to 23 recipients for
renewable energy projects for FYs 2001 through 2006. The Electric Programs provide renewable
energy assistance for rural electric utilities. These renewable energy projects include renewable

1
    We discussed the issue with RUS officials, and they agreed that they could improve the tracking of renewable energy loans and grants.

USDA/OIG-AUDIT/09601-7-Te                                                                                                                   Page 2
                                                                 March 2008
energy systems such as solar, wind, hydropower, biomass, and geothermal power. RUS does not
have specific programs devoted solely to renewable energy loans and grants. Instead, projects with a
renewable energy component are supported through one of RUS’ preexisting programs. RUS'
Electric Programs offer the following sources of financial assistance: hardship loans, municipal rate
loans, treasury rate loans, and guaranteed loans.

As a part of its assistance to rural communities with extremely high energy costs, RUS has made
funds available since FY 2003 for high energy cost grants. These grants fund projects that may
include, but are not limited to, renewable energy. For rural communities with extremely high energy
costs (where the average residential energy expenditure for home energy is at least 275 percent of
the national average), the Electric Programs provide grants to acquire, construct, extend, upgrade,
and otherwise improve energy generation, transmission, or distribution facilities. Eligible entities
are persons, State and local governments, and federally recognized Indian tribes and tribal entities.
Eligible projects provide or improve energy services to eligible communities through on-grid and
off-grid renewable energy projects, and energy conservation programs.

OBJECTIVE

The objective of this audit was to assess RUS’ actions related to renewable energy funds. We
evaluated key internal controls, such as program participants’ eligibility, as well as agency efforts to
promote renewable energy projects, monitor program activities, and determine the effectiveness of
renewable energy projects.

SCOPE AND METHODOLOGY

Our audit covered loans and grants for renewable energy projects made by RUS for FYs 2001
through 2006. Fieldwork began April 10, 2007, and ended July 23, 2007.

To accomplish our objective, we conducted interviews with RUS national and regional office
officials. We obtained and reviewed loan and grant records from national and regional offices. The
record reviews included administrative and financial records, as well as regulations, policies, and
procedures used to administer renewable energy projects. In addition, we reviewed the eligibility of
the applicants and the agency’s efforts to promote renewable energy. Our universe consisted of
23 loans and grants totaling over $113.5 million.

From our universe, we judgmentally selected two loans and two grants totaling over $11.9 million
for review and site visits. We selected these four projects because they were all located in Arizona,
and Arizona was the only State with both renewable energy loans and grants. We conducted site
visits (1) for the two loans in Lakeside and Fort Defiance and (2) for the two grants in Cameron and
Grand Canyon West. Our sample represented over 10 percent ($11.9 million/$113.5 million) of the
total renewable energy loans and grants issued nationwide. We also conducted interviews,
performed physical observations of the renewable energy projects, and reviewed grant recipient and
borrower records to ensure that funds were used as intended.




USDA/OIG-AUDIT/09601-7-Te                                                                       Page 3
                                             March 2008
We conducted the audit in accordance with generally accepted Government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

FINDING AND RECOMMENDATION

FINDING 1: Formal Strategy for Renewable Energy Projects is Needed

RUS did not have a formal strategy to maximize the use of funds set aside for renewable energy
projects and to ensure the effectiveness of these projects. Although RD does have a strategic plan, it
is general and not specific to RUS. RUS officials believe that they do not need a strategic plan that
is specific to RUS since they are one of the mission areas of RD, and RD has a strategic plan. As a
result, RUS has not maximized the use of available methods of funding, such as loan and grant
combinations, to satisfy requests for renewable energy grant project funds.

Over the past several years, the Administration has emphasized renewable energy as a solution to
our nation’s dependence on foreign sources of energy. Agencies have been encouraged to direct
funds from preexisting programs into renewable energy projects.

Departmental regulations state that all managers directing or controlling resources within the
Department are responsible for establishing, maintaining, evaluating, improving, and reporting on
controls in their assigned areas. The regulations also state that managers are to ensure efficiency and
effectiveness in operations.2 RUS regulations3 state that grant funds may be used in combination
with other USDA assistance programs, including RUS loans.

USDA’s Strategic Plan for FYs 2005-2010 and the FY 2008 Budget Summary and Annual
Performance Plan make renewable energy a priority for USDA. Additionally, the FY 2008 Budget
Summary and Annual Performance Plan states “more attention is being paid to addressing specific
priorities that have the potential for significant returns in terms of income and social benefits,
including directing the business programs to venture capital opportunities, such as renewable energy
and energy efficiency projects.”

Although USDA has placed emphasis on renewable energy, a great deal of the funds RUS set aside
for renewable energy loans went unused. In FYs 2001 and 2002, RUS approved $8.5 million in
loans for renewable energy, but the officials were unable to provide the total amount of loan funds
set aside for renewable energy projects in these 2 years. From FYs 2003 to 2006, RUS set aside
$200 million each year in loan funds for renewable energy projects. 4 Of the $800 million set aside
for energy-related loans from FYs 2003 to 2006, only $90.3 million in loans, or about 11 percent,
was used.



2
  Departmental Manual 1110-002, USDA Management Control Manual, dated November 29, 2002
3
  70 F.R. 100, sec. III D 2, dated May 25, 2005
4
  If the agency does not use these funds for renewable energy loans, then the agency makes them available again for other electric loans.

USDA/OIG-AUDIT/09601-7-Te                                                                                                                   Page 4
                                                                   March 2008
The fact that RUS issued no renewable energy loans in FYs 2005 and 2006 because there were no
viable applications demonstrates the low demand for these loans. During FYs 2001 through 2006,
for all of its programs, RUS received grant applications totaling approximately $355 million, of
which it funded $44.7 million (or about 13 percent). Of the $44.7 million funded, only
$14.9 million (33 percent) went to grants with a renewable energy component.

We spoke to RUS officials about the unused energy loan funds and the concurrent limited funding
for renewable energy grant projects. RUS officials stated that a lack of tax incentives was a reason
for the low demand of loan funds. RUS officials also stated that they have encouraged potential
borrowers to apply for grants first. RUS officials believed that once a recipient had obtained a loan,
they were ineligible to receive a grant.

In our review of RUS regulations, we did not find a restriction preventing recipients from obtaining
a grant after receiving a loan. RUS regulations 5 state that grant funds may be used in combination
with other USDA assistance programs, including RUS loans. We also discussed with RUS officials
the combining of grant and loan funds. RUS officials stated that combining loan and grant funds
for projects was a possible alternative. By using loan and grant combinations, RUS should be
able to use less grant funds and more loan funds while still maintaining both the applicant's
ability for repaying the loan and providing sufficient working capital and cash flow that will
sustain the project. For example, rather than giving a $1 million grant, RUS can require that the
applicant take a $700,000 grant coupled with a $300,000 loan, while still maintaining the
applicant's ability to have a successful project and pay back the loan. In that way, loan funds are
used more often (loan funds are underused now) and limited grant funds are stretched further to
more applicants.

The officials also stated that RUS has approved projects that received both RUS electric loans and
high energy cost grants; however, the projects did not involve renewable energy. These loans and
grants were made separately and not approved at the same time. RUS officials agreed that
combining loan and grant funding would make more funds available for renewable energy projects
if the grantees were in a position to support the loan.

We believe that RUS should develop a formal strategy that will maximize the use of available
funding resources for renewable energy projects

Recommendation 1:

Develop a formal strategy that maximizes the effectiveness of renewable energy projects, including
the development of goals and performance measures. Include in the strategy the use of grant and
loan combinations to maximize the use of available funding resources.




5
    70 F.R. 100, sec. III D 2, dated May 25, 2005

USDA/OIG-AUDIT/09601-7-Te                                                                      Page 5
                                                    March 2008
Agency Response:

RUS’ written response, dated March 13, 2008, concurred with the recommendation and stated that
the agency is developing a comprehensive marketing plan for renewable energy financing. The
marketing plan is scheduled to be completed by the end of March 2008.

OIG Position:

We accept management decision for the recommendation.




USDA/OIG-AUDIT/09601-7-Te                                                              Page 6
                                        March 2008
Exhibit A – RUS Response
                                         Exhibit A – Page 1 of 2




USDA/OIG-AUDIT/09601-7-Te                              Page 7
                            March 2008
                                         Exhibit A – Page 2 of 2




USDA/OIG-AUDIT/09601-7-Te                              Page 8
                            March 2008
